   AUDIT OF COMPLIANCE WITH STANDARDS

                GOVERNING

COMBINED DNA INDEX SYSTEM ACTIVITIES AT THE

 NORTH DAKOTA OFFICE OF ATTORNEY GENERAL

             CRIME LABORATORY

         BISMARCK, NORTH DAKOTA





          U.S. Department of Justice

        Office of the Inspector General

                 Audit Division



         Audit Report GR-60-13-005

                 April 2013

  AUDIT OF COMPLIANCE WITH STANDARDS GOVERNING

   COMBINED DNA INDEX SYSTEM ACTIVITIES AT THE

     NORTH DAKOTA OFFICE OF ATTORNEY GENERAL

                 CRIME LABORATORY

             BISMARCK, NORTH DAKOTA


                            EXECUTIVE SUMMARY



      The Department of Justice Office of the Inspector General (OIG), Audit
Division, has completed an audit of compliance with standards governing
Combined DNA Index System (CODIS) activities at the North Dakota Office
of Attorney General Crime Laboratory (Laboratory) in Bismarck, North
Dakota.

Background

      The Federal Bureau of Investigation’s (FBI) CODIS program combines
forensic science and computer technology to provide an investigative tool to
federal, state, and local crime laboratories in the United States, as well as
those from select international law enforcement agencies. The CODIS
program allows these crime laboratories to compare and match DNA profiles
electronically to assist law enforcement in solving crimes and identifying
missing or unidentified persons. 1 The FBI’s CODIS Unit manages CODIS, as
well as develops, supports, and provides the program to crime laboratories
to foster the exchange and comparison of forensic DNA evidence.

      The FBI implemented CODIS as a distributed database with
hierarchical levels that enables federal, state, and local crime laboratories to
compare DNA profiles electronically. The hierarchy consists of three distinct
levels that flow upward from the local level to the state level and then, if
allowable, the national level. The National DNA Index System (NDIS), the
highest level in the hierarchy, contains DNA profiles uploaded by law
enforcement agencies across the United States and is managed by the FBI.
NDIS enables the laboratories participating in the CODIS program to
electronically compare DNA profiles on a national level. The State DNA
Index System (SDIS) is used at the state level to serve as a state’s DNA

       1
         DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9 percent of human DNA is the same for all people. The differences found
in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification
characteristics (a DNA profile) for an individual by analyzing a specimen containing DNA.
database and contains DNA profiles from local laboratories and state
offenders. The Local DNA Index System (LDIS) is used by local laboratories.

OIG Audit Objectives

      Our audit generally covered the period from October 2010 through
November 2012. The objectives of our audit were to determine if: (1) the
North Dakota Office of Attorney General Crime Laboratory was in compliance
with select NDIS Operational Procedures; (2) the Laboratory was in
compliance with certain Quality Assurance Standards (QAS) issued by the
FBI; and (3) the Laboratory’s forensic DNA profiles in CODIS databases were
complete, accurate, and allowable for inclusion in NDIS.

      Our review determined the following:

      •	 The Laboratory was in compliance with the NDIS operational
         procedures tested. The Laboratory had sufficient measures to
         physically and electronically safeguard CODIS; for each CODIS
         user, all appropriate documents were provided to the FBI, and for
         the sample of NDIS Match’s we reviewed, the match confirmation
         process was timely. However, the Laboratory’s written policy on
         the casework confirmation process was not detailed. The policy
         was updated during field work and we take no further exception to
         the policy.

      •	 The Laboratory was in compliance with the QAS we reviewed,
         including: (1) completion of periodic external QAS reviews; (2)
         proper controls to prevent Laboratory access by unauthorized
         personnel; and (3) adequate procedures to ensure the integrity of
         evidence and convicted offender samples. We also found the
         laboratory does not currently outsource the analysis of its forensic
         DNA samples to another laboratory.

      •	 We reviewed 100 of the Laboratory’s 549 forensic profiles that have
         been uploaded to NDIS as of October 11, 2012. Of the 100 forensic
         profiles sampled, we found that 99 profiles were complete,
         accurate, and allowable for inclusion in NDIS. One profile was
         complete and accurate but unallowable for inclusion in NDIS, as the
         sample was taken from a shoe, which was removed directly from
         the suspect. The Laboratory deleted the profile prior to our arrival;
         as a result we take no further exception to the unallowable profile.

      The results of our audit are discussed in detail in the Findings section
of the report; we make no recommendations to the FBI. Our audit


                                       ii
objectives, scope, and methodology are detailed in Appendix I of the report
and the audit criteria are detailed in Appendix II.

      We discussed the results of our audit with Laboratory officials and
have included their comments in the report as applicable.




                                      iii
                                TABLE OF CONTENTS



INTRODUCTION ................................................................................ 1

   Background .....................................................................................1

   OIG Audit Objectives ........................................................................1

   Legal Foundation for CODIS...............................................................2

   CODIS Structure ..............................................................................2

   Laboratory Information .....................................................................6


FINDINGS......................................................................................... 7

   I. Compliance with NDIS Operational Procedures.................................7

   II. Compliance with Quality Assurance Standards ................................9

   III. Suitability of Forensic DNA Profiles in CODIS Databases................ 12


APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY ............... 14


APPENDIX II: AUDIT CRITERIA ...................................................... 16

   NDIS Operational Procedures ........................................................... 16

   Quality Assurance Standards ........................................................... 16

   Office of the Inspector General Standards ......................................... 18


APPENDIX III: FBI RESPONSE TO THE DRAFT REPORT .................. 19

  AUDIT OF COMPLIANCE WITH STANDARDS GOVERNING

   COMBINED DNA INDEX SYSTEM ACTIVITIES AT THE

     NORTH DAKOTA OFFICE OF ATTORNEY GENERAL

                 CRIME LABORATORY

             BISMARCK, NORTH DAKOTA


                                 INTRODUCTION



      The Department of Justice Office of the Inspector General (OIG), Audit
Division, has completed an audit of compliance with standards governing
Combined DNA Index System (CODIS) activities at the North Dakota Office
of Attorney General Crime Laboratory (Laboratory).

Background

      The Federal Bureau of Investigation’s (FBI) CODIS provides an
investigative tool to federal, state, and local crime laboratories in the United
States using forensic science and computer technology. The CODIS program
allows these laboratories to compare and match DNA profiles electronically,
thereby assisting law enforcement in solving crimes and identifying missing
or unidentified persons. 1 The FBI’s CODIS Unit manages CODIS and is
responsible for its use in fostering the exchange and comparison of forensic
DNA evidence.

OIG Audit Objectives

      Our audit generally covered the period from October 2010 to
November 2012. The objectives of our audit were to determine if: (1) the
North Dakota Office of Attorney General Crime Laboratory was in compliance
with select National DNA Index System (NDIS) Operational Procedures; (2)
the Laboratory was in compliance with certain Quality Assurance Standards
(QAS) issued by the FBI; and (3) the Laboratory’s forensic DNA profiles in
CODIS databases were complete, accurate, and allowable for inclusion in
NDIS. Appendix I contains a detailed description of our audit objectives,
scope, and methodology; and Appendix II contains the criteria used to
conduct the audit.

       1
         DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9 percent of human DNA is the same for all people. The differences found
in the remaining 0.1 percent allow scientists to develop a unique set of DNA identification
characteristics (a DNA profile) for an individual by analyzing a specimen containing DNA.
Legal Foundation for CODIS

      The FBI’s CODIS program began as a pilot project in 1990. The DNA
Identification Act of 1994 (Act) authorized the FBI to establish a national
index of DNA profiles for law enforcement purposes. The Act, along with
subsequent amendments, has been codified in a federal statute (Statute)
providing the legal authority to establish and maintain NDIS. 2


Allowable DNA Profiles

      The Statute authorizes NDIS to contain the DNA identification records
of persons convicted of crimes, persons who have been charged in an
indictment or information with a crime, and other persons whose DNA
samples are collected under applicable legal authorities. Samples voluntarily
submitted solely for elimination purposes are not authorized for inclusion in
NDIS. The Statute also authorizes NDIS to include analysis of DNA samples
recovered from crime scenes or from unidentified human remains, as well as
those voluntarily contributed from relatives of missing persons.

Allowable Disclosure of DNA Profiles

       The Statute requires that NDIS only include DNA information that is
based on analyses performed by or on behalf of a criminal justice
agency – or the U.S. Department of Defense – in accordance with QAS
issued by the FBI. The DNA information in the index is authorized to be
disclosed only: (1) to criminal justice agencies for law enforcement
identification purposes; (2) in judicial proceedings, if otherwise admissible
pursuant to applicable statutes or rules; (3) for criminal defense purposes,
to a defendant who shall have access to samples and analyses performed in
connection with the case in which the defendant is charged; or (4) if
personally identifiable information (PII) is removed for a population statistics
database, for identification research and protocol development purposes, or
for quality control purposes.

CODIS Structure

       The FBI implemented CODIS as a distributed database with
hierarchical levels that enables federal, state, and local crime laboratories to
compare DNA profiles electronically. CODIS consists of a hierarchy of three
distinct levels: (1) NDIS, managed by the FBI as the nation’s DNA database

      2
          42 U.S.C.A. § 14132 (2006).

                                        2

containing DNA profiles uploaded by participating states; (2) the State DNA
Index System (SDIS) which serves as a state’s DNA database containing
DNA profiles from local laboratories within the state and state offenders; and
(3) the Local DNA Index System (LDIS), used by local laboratories. DNA
profiles originate at the local level and then flow upward to the state and, if
allowable, national level. For example, the local laboratory in the Palm
Beach County, Florida, Sheriff’s Office sends its profiles to the state
laboratory in Tallahassee, which then uploads the profiles to NDIS. Each
state participating in CODIS has one designated SDIS laboratory. The SDIS
laboratory maintains its own database and is responsible for overseeing
NDIS issues for all CODIS-participating laboratories within the state. The
graphic below illustrates how the system hierarchy works.

                 Example of System Hierarchy within CODIS

                                              NDIS
                                   Maintained by the FBI




SDIS                            SDIS                             SDIS
Laboratory                      Laboratory                       Laboratory
Richmond, CA                    Springfield, IL                  Tallahassee, FL



                                  LDIS Laboratories (partial list):
                                  DuPage County Sheriff’s Office
                                  Illinois State Police, Chicago
                                  Illinois State Police, Rockford

 LDIS Laboratories (partial list):                       LDIS Laboratories (partial list):
 Orange County Sheriff’s Department                      Broward County Sheriff’s Office
 San Bernardino County Sheriff’s Department              Miami-Dade Police Department
 San Diego Police Department                             Palm Beach County Sheriff’s Office




National DNA Index System

       NDIS, the highest level in the CODIS hierarchy, enables laboratories
participating in the CODIS program to electronically compare DNA profiles on
a national level. NDIS does not contain names or other PII about the
profiles. Therefore, matches are resolved through a system of


                                                  3

laboratory-to-laboratory contacts. NDIS contains the following eight
searchable indices:

       •	   Convicted Offender Index contains profiles generated from persons
            convicted of qualifying offenses. 3

       •	   Arrestee Index is comprised of profiles developed from persons who
            have been arrested, indicted, or charged in an information with a
            crime.

       •	   Legal Index consists of profiles that are produced from DNA
            samples collected from persons under other applicable legal
            authorities. 4

       •	   Detainee Index contains profiles from non-U.S. persons detained
            under the authority of the United States and required by law to
            provide a DNA sample for analysis and entry into NDIS.

       •	   Forensic Index profiles originate from, and are associated with,
            evidence found at crime scenes.

       •	   Missing Person Index contains known DNA profiles of missing
            persons and deduced missing persons.

       •	   Unidentified Human (Remains) Index holds profiles from
            unidentified living individuals and the remains of unidentified
            deceased individuals. 5

       •	   Relatives of Missing Person Index is comprised of DNA profiles
            generated from the biological relatives of individuals reported
            missing.

      Given these multiple databases, the main functions of CODIS are to:
(1) generate investigative leads that may help in solving crimes and
(2) identify missing and unidentified persons.



       3
          The phrase “qualifying offenses” refers to local, state, or federal crimes that
require a person to provide a DNA sample in accordance with applicable laws.
       4
         An example of a Legal Index profile is one from a person found not guilty by
reason of insanity who is required by the relevant state law to provide a DNA sample.
       5
           An example of an Unidentified Human (Remains) Index profile from a living person
is a profile from a child or other individual, who cannot or refuses to identify themselves.

                                               4

       The Forensic Index generates investigative leads in CODIS that may
help solve crimes. Investigative leads may be generated through matches
between the Forensic Index and other indices in the system, including the
Convicted Offender, Arrestee, and Legal Indices. These matches may
provide investigators with the identity of suspected perpetrators. CODIS
also links crime scenes through matches between Forensic Index profiles,
potentially identifying serial offenders.

       In addition to generating investigative leads, CODIS furthers the
objectives of the FBI’s National Missing Person DNA Database program
through its ability to identify missing and unidentified individuals. For
instance, those persons may be identified through matches between the
profiles in the Missing Person Index and the Unidentified Human (Remains)
Index. In addition, the profiles within the Missing Person and Unidentified
Human (Remains) Indices may be vetted against the Forensic, Convicted
Offender, Arrestee, Detainee, and Legal Indices to provide investigators with
leads in solving missing and unidentified person cases.

State and Local DNA Index Systems

       The FBI provides CODIS software free of charge to any state or local
law enforcement laboratory performing DNA analysis. Laboratories are able
to use the CODIS software to upload profiles to NDIS. However, before a
laboratory is allowed to participate at the national level and upload DNA
profiles to NDIS, a Memorandum of Understanding (MOU) must be signed
between the FBI and the applicable state’s SDIS laboratory. The MOU
defines the responsibilities of each party, includes a sublicense for the use of
CODIS software, and delineates the standards laboratories must meet in
order to utilize NDIS. Although officials from LDIS laboratories do not sign
an MOU, LDIS laboratories that upload DNA profiles to an SDIS laboratory
are required to adhere to the MOU signed by the SDIS laboratory.

       States are authorized to upload DNA profiles to NDIS based on local,
state, and federal laws, as well as NDIS regulations. However, states or
localities may maintain NDIS-restricted profiles in SDIS or LDIS. For
instance, a local law may allow for the collection and maintenance of a
victim profile at LDIS but NDIS regulations do not authorize the upload of
that profile to the national level.

       CODIS becomes more useful as the quantity of DNA profiles in the
system increases because the potential for additional leads rises. However,
the utility of CODIS relies upon the completeness, accuracy, and quality of
profiles that laboratories upload to the system. Incomplete CODIS profiles
are those for which the required number of core loci were not tested or do

                                       5

not contain all of the DNA information that resulted from a DNA analysis and
may not be searched at NDIS. 6 The probability of a false match among DNA
profiles is reduced as the completeness of a profile increases. Inaccurate
profiles, which contain incorrect DNA information or an incorrect specimen
number, may generate false positive leads, false negative comparisons, or
lead to the misidentification of a sample. Further, laws and regulations
exclude certain types of profiles from being uploaded to CODIS to prevent
violations to an individual’s privacy and foster the public’s confidence in
CODIS. Therefore, it is the responsibility of the Laboratory to ensure that it
is adhering to the NDIS operational procedures and the profiles uploaded to
CODIS are complete, accurate, and allowable for inclusion in NDIS.

Laboratory Information

     The Laboratory is the only CODIS laboratory in the state of North
Dakota and they serve 150 agencies and a population of 720,000. The
Laboratory is American Society of Crime Laboratory Directors Laboratory
Accreditation Board (ASCLD/LAB) International certified, which was just
renewed in October 2012.

     The Laboratory signed the FBI Memorandum of Understanding on
January 27, 1999, and began processing criminal case evidence late in
2000; their first upload to NDIS was on December 19, 2000. The Laboratory
has not outsourced the analysis of samples within the last 2 years.

      The Laboratory started receiving offender samples on October 27,
1999, and began uploading the offender specimens on October 9, 2003. The
Laboratory has an arrestee database, which it began on August 1, 2009, and
it does not have a Legal Index database.




      6
          A “locus” is a specific location on a chromosome. The plural form of locus is loci.

                                               6

                               FINDINGS

     I.	 Compliance with NDIS Operational Procedures

        The Laboratory was in compliance with the NDIS
        participation requirements regarding sufficient
        measures to physically and electronically safeguard
        CODIS, all required personnel have successfully
        completed the annual training, and for each CODIS
        user, the appropriate documents were provided to the
        FBI. However, the Laboratory’s case work match
        criteria was not detailed. The Laboratory’s written
        policies were revised and we take no exception to the
        updated match policies. We make no recommendation
        to the FBI regarding the Laboratory’s compliance with
        the NDIS procedures.

      The NDIS operational procedures, which include the NDIS Laboratories
Operational Procedures, establish the responsibilities and obligations of
laboratories that participate in the CODIS program at the national level. The
NDIS Operational Procedures provide detailed instructions for laboratories to
follow when performing certain procedures pertinent to NDIS. The NDIS
operational procedures we reviewed are listed in Appendix II of this report.

Results of the OIG Audit

       We found that the Laboratory complied with the NDIS operational
procedures we reviewed. Specifically, we found the Laboratory had
sufficient measures to physically and electronically safeguard CODIS;
adequate policies and procedures for expungement of DNA records, and the
NDIS procedures were available and accessible to the CODIS users. These
results are described in more detail below.

  •	 The NDIS Security Requirements state that the NDIS participating
     Laboratory shall be responsible for providing adequate physical
     security of the CODIS servers and terminals against any unauthorized
     personnel gaining access to the computer equipment or to any of the
     stored data. We found that the CODIS workstations were located in a
     secure section inside the Laboratory building. The workstations were
     password protected, each CODIS user had a unique user name and
     password, and the system automatically logged users off after 10
     minutes of inactivity. The CODIS server was located in a separate
     room inside the secure laboratory building.


                                      7

  •	 CODIS users are required to complete annual DNA Records Acceptance
     training. The FBI provided a list to us of Laboratory personnel who
     had received this mandatory annual training, which we compared to a
     list provided by the Laboratory. We found that all authorized
     personnel have successfully completed the annual training.

  •	 For each CODIS user, the FBI requires that a participating laboratory
     submit fingerprint cards, background information, CODIS user
     information, and Privacy Act explanation to the FBI. We verified that
     all necessary documents were provided to the FBI for all CODIS users
     at the Laboratory.

  •	 The NDIS Operational Procedures defines the procedure for NDIS
     participating laboratories to follow when confirming matches that are
     identified in NDIS. In addition, these procedures require that the
     CODIS Administrator must review and make best efforts to disposition
     matches within 30 business days. We selected a judgmental sample of
     five NDIS matches and reviewed available documentation and
     determine the Laboratory confirmed the matches in a timely manner.

     We did note that the Laboratory’s written casework match criteria was
     not detailed, it was simply listed as a responsibility of the CODIS
     Technical Manager. After mentioning this to the CODIS Administrator,
     the Laboratory’s written policies were appropriately revised. As a
     result, we take no exception to the Laboratory’s updated match
     policies.

Conclusion

       We found that the Laboratory was in compliance with the NDIS
participation requirements that we reviewed, the Laboratory provided
adequate physical security of the CODIS servers and terminals, all required
personnel had successfully completed the annual training, all necessary
documents were provided to the FBI for all CODIS users at the Laboratory,
and the judgmentally selected sample of five NDIS matches were confirmed
in a timely manner.

We made no recommendations concerning our review of the NDIS
Operational Procedures.




                                     8

   II. Compliance with Quality Assurance Standards

           We found that the Laboratory complied with the Quality
           Assurance Standards (QAS) we tested. Specifically, we
           found that the Laboratory: (1) underwent Quality
           Assurance Standard reviews within designated
           timeframes, (2) had policies in place to help ensure
           laboratory access was limited to authorized personnel,
           and (3) had adequate procedures to ensure the
           integrity of evidence and convicted offender samples.
           We make no recommendations to the FBI regarding the
           Laboratory’s compliance with the QAS.

      During our audit, we considered the Forensic and Offender QAS issued
by the FBI. 7 These standards describe the quality assurance requirements
that the Laboratory must follow to ensure the quality and integrity of the
data it produces. We also assessed the two most recent QAS reviews that
the laboratory underwent. 8 The QAS we reviewed are listed in Appendix II.

Results of the OIG Audit

      We found that the Laboratory complied with the Forensic and Offender
QAS tested. Specifically, we found the Laboratory underwent Quality
Assurance Standard reviews, had policies in place to help ensure Laboratory
access was limited to authorized personnel, and had adequate procedures to
ensure the integrity of evidence and convicted offender samples. These
results are described in more detail below.

   •	 The QAS requires laboratories to undergo an annual review, including
      an external review every 2 years. The Laboratory had external quality
      assurance reviews conducted in August 2011 and March 2012. The
      frequency of these reviews met the QAS requirements.



       7
         Forensic Quality Assurance Standards refer to the Quality Assurance Standards for
Forensic DNA Testing Laboratories, effective September 1, 2011.
       8
          The QAS require that laboratories undergo annual audits. Every other year, the
QAS requires that the audit be performed by an external agency that performs DNA
identification analysis and is independent of the laboratory being reviewed. These audits
are not required by the QAS to be performed in accordance with the Government Auditing
Standards (GAS) and are not performed by the Department of Justice Office of the
Inspector General. Therefore, we will refer to the QAS audits as reviews (either an internal
laboratory review or an external laboratory review, as applicable) to avoid confusion with
our audits that are conducted in accordance with GAS.

                                             9

•	 We reviewed the Laboratory’s prior 2 years of QAS review reports.
   Both the August 2011 and March 2012 reviews were conducted using
   the FBI’s QAS Review Document and the FBI confirmed that QAS
   reviewers who conducted these reviews completed the FBI QAS
   Review training course.

•	 We toured the laboratory and observed that access to the Laboratory
   is controlled and limited to prevent access by unauthorized personnel.
   Specifically, the Laboratory has one entrance to the Laboratory for
   employees and the public. After entering the one entrance, employees
   swipe their key cards to further access the building while visitors ring a
   bell for assistance. Law enforcement personnel dropping off evidence
   go to the evidence drop window. There were security cameras on the
   exterior of the building and a building security system, which is set
   after hours. The system includes motion detectors inside the building.
   We found no deficiencies in the external security at the Laboratory, it
   is in compliance with the QAS requirements we tested.

•	 While touring the Laboratory, we also observed the procedures used
   by the Laboratory to ensure the integrity of physical evidence and
   convicted offender samples. Evidence chain of custody is tracked in
   the Laboratory’s Information Management system (LIMS). Evidence is
   received and entered into LIMS, which generates a bar code number
   and sticker. Prior to processing, evidence is stored in the evidence
   storage room, which has shelves, locked refrigerators, and locked
   freezers. After evidence is analyzed the DNA packets are placed in the
   evidence vault, which also has dry storage, locked refrigerators and
   locked freezers. Laboratory staff have scan-card access to the storage
   room and vault.

   Convicted Offender samples are entered into the Laboratory’s DNA
   databank system which generates a barcode number and sticker.
   Prior to processing, the Convicted Offender samples are stored on
   shelves in the evidence receiving room and after processing they are
   stored in the evidence vault. Laboratory staff have scan-card access
   to the evidence receiving room and the evidence vault. Overall, we
   found no significant deficiencies in the security of evidence and
   offender samples, we found it to be in compliance with the QAS
   requirements we tested.

•	 The QAS requires amplified DNA to be generated, processed, and
   maintained in a room separate from the sample accessioning, evidence
   examination, DNA extraction, and PCR setup areas. We observed that
   the Laboratory has a separate amplification room. After examination,

                                   10

     extraction, and PCR set up are complete, the analyst places the
     evidence in a small metal pass-through-door to the amplification room.
     Based upon our observations, we did not identify any material
     deficiencies with regard to the Laboratory performing various DNA
     analysis processes in separate times and spaces.

  •	 We learned that the Laboratory does not currently outsource the
     analysis of its forensic DNA samples to another laboratory and has not
     done so in the past 2 years.

  •	 The QAS requires that an external quality assurance review be
     forwarded to the FBI’s NDIS Custodian within 30 days of the
     participating laboratory’s receipt of the report. We reviewed the
     submission of the most recent external reviews and found that the
     reports were submitted to the FBI’s NDIS Custodian in a timely
     manner.

Conclusion

      We found that the Laboratory complied with the FBI’s Forensic QAS
that we tested. Specifically, we found that the Laboratory: (1) underwent
Quality Assurance Standard reviews within the last 2 years; (2) controlled
and limited Laboratory access to authorized personnel; and (3) had
adequate procedures to ensure the integrity of evidence and convicted
offender samples. We made no recommendations concerning our review of
Quality Assurance Standards.




                                    11

     III. Suitability of Forensic DNA Profiles in CODIS Databases

         We found 99 of the 100 profiles we reviewed to be
         complete, accurate, and allowable for inclusion in
         NDIS. One profile was complete and accurate but,
         unallowable for inclusion in NDIS, as it came from a
         shoe removed directly from a suspect. The Laboratory
         removed the unallowable profile from NDIS prior to the
         start of our field work. As a result, we take no further
         exception to the profile and make no recommendation
         to the FBI.

       We reviewed a sample of the Laboratory’s Forensic DNA profiles to
determine whether each profile was complete, accurate, and allowable for
inclusion in NDIS. To test the completeness and accuracy of each profile, we
established standards that require a profile include all the loci for which the
analyst obtained results, and that the values at each locus match those
identified during analysis. Our standards are described in more detail in
Appendix II of this report.

       The FBI’s NDIS operational procedures establish the DNA data
acceptance standards by which laboratories must abide. The FBI also
developed a flowchart as guidance for the laboratories for determining what
is allowable in the forensic index at NDIS. Laboratories are prohibited from
uploading forensic profiles to NDIS that clearly match the DNA profile of the
victim or another known person that is not a suspect. A profile at NDIS that
matches a suspect may be allowable if the contributor is unknown at the
time of collection, however, NDIS guidelines prohibit profiles that match a
suspect if that profile could reasonably have been expected to be on an item
at the crime scene or part of the crime scene independent of the crime. For
instance, a profile from an item seized from the suspect’s person, such as a
shirt, or that was in the possession of the suspect when collected is
generally not a forensic unknown and would not be allowable for upload to
NDIS. The NDIS procedures we reviewed are listed in Appendix II of this
report.

Results of the OIG Audit

       We selected a sample of 100 profiles out of the 549 forensic profiles
the Laboratory had uploaded to NDIS as of October 11, 2012. Of the 100
forensic profiles sampled, we found that 1 was unallowable for upload to
NDIS. The remaining profiles sampled were complete, accurate, and
allowable for inclusion in NDIS. The specific exception is explained in more
detail below.

                                      12

Profile Allowability

       As part of our review, we examined each of the 100 forensic profiles in
our sample to determine if the profile was, complete, accurate, and
allowable based on NDIS guidelines. Specifically, our review examined each
profile in the sample to determine its suitability based on NDIS guidelines
such as: (1) whether a crime was committed; (2) whether the profile was
obtained from the crime scene; and; (3) whether the profile was attributable
to a putative perpetrator.

       OIG Sample Number ND-13 was complete and accurate but not
allowable; the sample was taken from a shoe removed directly from the
suspect. When we brought this to the CODIS Administrators attention we
were informed that the Laboratory removed the profile from NDIS prior to
the start of field work. As a result, we take no further exception to the
profile and make no recommendation to the FBI. According to the CODIS
Administrator, the Laboratory also deleted OIG Sample Number ND-35 prior
to our arrival because the case had been solved and the profile uploaded did
not belong to the person who committed the homicide.

Conclusion

      We found 99 of the 100 profiles we reviewed to be complete, accurate,
and allowable for inclusion in NDIS. One profile was unallowable, as it came
from a shoe removed directly from a suspect. The Laboratory removed the
unallowable profile from NDIS prior to the start of field work. As a result, we
made no recommendations concerning our review of Forensic DNA profiles.




                                      13

                                                               APPENDIX I

           OBJECTIVES, SCOPE, AND METHODOLOGY


      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      Our audit generally covered the period from October 2010, through
November 2012. The objectives of the audit were to determine if the: (1)
Laboratory was in compliance with select National DNA Index System (NDIS)
Operational Procedures; (2) Laboratory was in compliance with certain
Quality Assurance Standards (QAS) issued by the FBI; and (3) Laboratory’s
forensic DNA profiles in CODIS databases were complete, accurate, and
allowable for inclusion in NDIS. To accomplish the objectives of the audit,
we:

  •	 Examined external Laboratory QAS review reports and supporting
     documentation for corrective action taken, if any, to determine whether:
     (a) the Laboratory complied with the QAS, (b) repeat findings were
     identified, and (c) recommendations were adequately resolved.

     In accordance with the QAS, the internal and external laboratory review
     procedures are to address, at a minimum, a laboratory’s quality
     assurance program, organization and management, personnel
     qualifications, facilities, evidence control, validation of methods and
     procedures, analytical procedures, calibration and maintenance of
     instruments and equipment, proficiency testing of analysts, corrective
     action for discrepancies and errors, review of case files, reports, safety,
     and previous audits. The QAS require that internal and external reviews
     be performed by personnel who have successfully completed the FBI’s
     training course for conducting such reviews. We obtained evidence from
     the FBI concerning the qualifications of the internal and external
     reviewers.

  •	 Interviewed Laboratory officials to identify management controls,
     Laboratory operational policies and procedures, Laboratory certifications
     or accreditations, and analytical information related to DNA profiles.


                                      14

  •	 Toured the Laboratory to observe facility security measures as well as
     the procedures and controls related to the receipt, processing,
     analyzing, and storage of forensic evidence and convicted offender DNA
     samples.

  •	 Reviewed the Laboratory’s written policies and procedures related to
     expunging DNA profiles from NDIS and resolving matches among DNA
     profiles in NDIS.

  •	 Reviewed supporting documentation for 5 of 39 NDIS matches to
     determine whether they were resolved in a timely manner. The
     Laboratory provided the universe of NDIS matches as of November 5,
     2012. The sample was judgmentally selected to include both
     case-to-case and case-to-offender matches. This non-statistical sample
     does not allow projection of the test results to all matches.

  •	 Reviewed the case files for selected forensic DNA profiles to determine if
     the profiles were complete, accurate, and allowable for inclusion in
     NDIS.

     We obtained an electronic file identifying the specimen identification
     numbers of 549 searchable forensic profiles the Laboratory had
     uploaded to NDIS between October 1, 2007 and October 11, 2012. We
     limited our review to a sample of 100 profiles. This sample size was
     determined judgmentally because preliminary audit work determined
     that risk was not unacceptably high. (At A.1.PRG, step 1 it was
     determined that the Laboratory was accredited, and therefore had met
     minimum criteria for accreditation)

     Using the judgmentally-determined sample size, we employed a
     stratified sample design to randomly select a representative sample of
     profiles in our universe. However, since the sample size was
     judgmentally determined, the results obtained from testing this limited
     sample of profiles may not be projected to the universe of profiles from
     which the sample was selected.

      The objectives of our audit concerned the Laboratory's compliance with
required standards and the related internal controls. Accordingly, we did not
attach a separate statement on compliance with laws and regulations or a
statement on internal controls to this report. See Appendix II for detailed
information on our audit criteria.



                                     15

                                                                       APPENDIX II

                                AUDIT CRITERIA

      In conducting our audit, we considered the NDIS Operational
Procedures, QAS, and guidance issued by the FBI regarding forensic profile
allowability in NDIS. 9 However, we did not test for compliance with
elements that were not applicable to the Laboratory. In addition, we
established standards to test the completeness and accuracy of DNA profiles
as well as the timely notification of DNA profile matches to law enforcement.

NDIS Operational Procedures

       The NDIS Operational Procedures, which include the NDIS operational
procedures, establish the responsibilities and obligations of laboratories that
participate in NDIS. We focused our audit on specific sections of the
following NDIS requirements:

   •   NDIS Laboratories Procedure
   •   Quality Assurance Standards Audit Procedure
   •   NDIS Confirmation and Hit Dispositioning Procedure
   •   NDIS DNA Records Procedure
   •   DNA Data Acceptance Standards
   •   NDIS Searches Procedure
   •   NDIS Security Requirements Procedure

Quality Assurance Standards

      The FBI issued two sets of QAS: (1) QAS for Forensic DNA Testing
Laboratories, effective September 1, 2011 (Forensic QAS); and (2) QAS for
DNA Databasing Laboratories, effective September 1, 2011 (Offender QAS).
The Forensic QAS and the Offender QAS describe the quality assurance
requirements that the Laboratory should follow to ensure the quality and
integrity of the data it produces.

      For our audit, we generally relied on the reported results of the
Laboratory’s most recent annual external review to determine if the
Laboratory was in compliance with the QAS. Additionally, we performed
audit work to verify that the Laboratory was in compliance with the QAS

       9
         The FBI Flowchart is guidance issued to NDIS-participating laboratories separate
from the NDIS operational procedures. The flowchart is contained in the 2010 CODIS
Administrator’s Handbook and has been provided to laboratories in forums such as CODIS
conferences.

                                            16

listed below because they have a substantial effect on the integrity of the
DNA profiles uploaded to NDIS.

   •	 Facilities (Forensic QAS and Offender QAS 6.1): The laboratory shall
      have a facility that is designed to ensure the integrity of the analyses
      and the evidence.

   •	 Evidence Control (Forensic QAS 7.1): The laboratory shall have and
      follow a documented evidence control system to ensure the integrity of
      physical evidence. Where possible, the laboratory shall retain or return
      a portion of the evidence sample or extract.

   •	 Sample Control (Offender QAS 7.1): The laboratory shall have and
      follow a documented sample inventory control system to ensure the
      integrity of the database and known samples.

   •	 Analytical Procedures (Forensic QAS and Offender QAS 9.5): The
      laboratory shall monitor the analytical procedures using [appropriate]
      controls and standards.

   •	 Review (Forensic QAS 12.1): The laboratory shall conduct
      administrative and technical reviews of all case files and reports to
      ensure conclusions and supporting data are reasonable and within the
      constraints of scientific knowledge.

      (Offender QAS Standard 12.1): The laboratory shall have and follow
      written procedures for reviewing DNA records and DNA database
      information, including the resolution of database matches.

   •	 [Reviews] (Forensic QAS and Offender QAS 15.1 and 15.2): The
      laboratory shall be audited annually in accordance with [the QAS]. The
      annual audits shall occur every calendar year and shall be at least 6
      months and no more than 18 months apart. At least once every 2
      years, an external audit shall be conducted by an audit team comprised
      of qualified auditors from a second agency(ies) and having at least one
      team member who is or has been previously qualified in the laboratory’s
      current DNA technologies and platform.

   •	 Outsourcing (Forensic QAS and Offender QAS Standard 17.1): A vendor
      laboratory performing forensic and database DNA analysis shall comply
      with these Standards and the accreditation requirements of federal law.

      Forensic QAS 17.4: An NDIS participating laboratory shall have and
      follow a procedure to verify the integrity of the DNA data received

                                      17

     through the performance of the technical review of DNA data from a
     vendor laboratory.

     Offender QAS Standard 17.4: An NDIS participating laboratory shall
     have, follow and document appropriate quality assurance procedures to
     verify the integrity of the data received from the vendor laboratory
     including, but not limited to, the following: Random reanalysis of
     database, known or casework reference samples; Inclusion of QC
     samples; Performance of an on-site visit by an NDIS participating
     laboratory or multi-laboratory system outsourcing DNA sample(s) to a
     vendor laboratory or accepting ownership of DNA data from a vendor
     laboratory.

Office of the Inspector General Standards

       We established standards to test the completeness and accuracy of
DNA profiles as well as the timely notification of law enforcement when DNA
profile matches occur in NDIS. Our standards are listed below.

  •	 Completeness of DNA Profiles: A profile must include each value
     returned at each locus for which the analyst obtained results. Our
     rationale for this standard is that the probability of a false match
     among DNA profiles is reduced as the number of loci included in a
     profile increases. A false match would require the unnecessary use of
     laboratory resources to refute the match.


  •	 Accuracy of DNA Profiles: The values at each locus of a profile must
     match those identified during analysis. Our rationale for this standard
     is that inaccurate profiles may: (1) preclude DNA profiles from being
     matched and, therefore, the potential to link convicted offenders to a
     crime or to link previously unrelated crimes to each other may be lost;
     or (2) result in a false match that would require the unnecessary use
     of laboratory resources to refute the match.


  •	 Timely Notification of Law Enforcement When DNA Profile Matches
     Occur in NDIS: Laboratories should notify law enforcement personnel
     of NDIS matches within 2 weeks of the match confirmation date,
     unless there are extenuating circumstances. Our rationale for this
     standard is that untimely notification of law enforcement personnel
     may result in the suspected perpetrator committing additional, and
     possibly more egregious, crimes if the individual is not deceased or
     already incarcerated for the commission of other crimes.

                                    18

                                                                                        APPENDIX III

        FBI RESPONSE TO THE DRAFT REPORT



                                                             U.S. Depa rlmcnt of J uslice

                                                             Federal Bureau of Investigation




                                                             April 9. 2013

David M. Shccrcn. Regional Audit Manager
Denver Regional Audit Office
Office of the Inspector General
1120 Lincoln, Suitc 1500
Denver, CO 80203


Dear Mr. Sheeren:
               Your memorandum to Director Mueller forwarding the draft audit report for the
North Dakota Office of Attorney General Crime Laboratory, Bismarck, North Dakota
(Laboratory), has been referred to me for responsc.
                Your draft report contained no recommendations relating to the Laboratory's
compliance with the FBI's Memorandum of Understanding and Qua{jtyA.5~·urance Standards/or
DNA Testing Labomtories and DNA Da/abasing lnbomtaries. Thc COOlS Unit reviewed the
draft report and since it appears that the Laboratory is in compliance with NDIS participation
requirements, Ihe COOlS Unit has no Significant comments to provide about the draft report.
                Thank you (or sharing the draft audit report with us. If you have any questions,
please (eel free 10 comact 1cnnifer C. Wendel , Chief o( the COOlS Unit, at (703) 632-8315.

                                                    Sincerely,


                                                      ~~~~(tL~
                                                      Section Chief
                                                      Biometrics Analysis Section
                                                      FBI Laboratory




                                                19

